CERTIFICATE OF SERVICE
No. TBD
Robert Murphy
Petitioner(s)
v.
Office of Professional Discipline
Respondents)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Robert
Murphy Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Michael D. Gottsch
Office of Disciplinary Counsel
District 1
1601 Market St., Suite 3320
Philadelphia, PA 19103-2337
Counsel for Office of Disciplinary Counsel

Lucas “DeDeus

March 18, 2020
SCP Tracking: Murphy-7 Coopertown Road-Cover White

